      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




May 20, 2010

TO:            Marilyn Tavenner
               Acting Administrator and Chief Operating Officer
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Central Louisiana State Hospital’s Hurricane-Related Uncompensated
               Care Claims (A-06-09-00084)


Attached, for your information, is an advance copy of our final report on Central Louisiana State
Hospital’s hurricane-related uncompensated care claims. We will issue this report to the
Louisiana Department of Health and Hospitals within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at
(214) 767-6325 or through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number
A-06-09-00084.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

   Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242




May 24, 2010

Report Number: A-06-09-00084

Mr. Alan Levine
Secretary
Louisiana Department of Health and Hospitals
628 North Fourth Street
Baton Rouge, LA 70821

Dear Mr. Levine:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Central Louisiana State Hospital’s Hurricane-
Related Uncompensated Care Claims. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michelle Richards, Audit Manager, at (214) 767-9202 or through email at
Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-09-00084 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Alan Levine


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF CENTRAL LOUISIANA
STATE HOSPITAL’S HURRICANE-
  RELATED UNCOMPENSATED
        CARE CLAIMS




                       Daniel R. Levinson
                        Inspector General

                           May 2010
                         A-06-09-00084
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

In response to Hurricane Katrina, section 6201 of the Deficit Reduction Act of 2005 authorized
Federal funding for the total costs of medically necessary uncompensated care furnished to
evacuees and affected individuals without other coverage in eligible States, i.e., States that
provided care to such individuals in accordance with section 1115 projects.

Pursuant to section 1115 of the Social Security Act, the Centers for Medicare & Medicaid
Services (CMS) approved Louisiana’s request for demonstration authority related to Hurricanes
Katrina and Rita. For Hurricane Katrina evacuees and affected individuals, CMS approved an
uncompensated care pool to reimburse providers for medically necessary services provided to
individuals without other coverage. CMS subsequently authorized the State to operate an
uncompensated care pool for Hurricane Rita evacuees without other coverage. In approving the
State’s uncompensated care pool plan (the UCCP plan), CMS authorized reimbursement for
uncompensated care provided to Katrina evacuees and affected individuals from August 24,
2005, through January 31, 2006, and to Rita evacuees from September 23, 2005, through
January 31, 2006. The pool was 100 percent federally funded.

Before CMS approved the UCCP plan, Louisiana published an emergency regulation stating that
reimbursement from the uncompensated care pool was available for specified services covered
under the State Medicaid plan. In approving the UCCP plan, CMS specified that payment would
be made in accordance with both the Medicaid plan and the UCCP plan and that expenditures
above those limits were not reimbursable. The Medicaid plan limits inpatient psychiatric
coverage for patients in institutions for mental diseases to those who are under the age of 21, and
in some cases under the age of 22, as well as to those who are 65 years old or older.

As of December 31, 2006, the Louisiana Department of Health and Hospitals (the State agency)
reported $123.2 million in uncompensated care reimbursement to 834 health care providers.
Central Louisiana State Hospital (the Hospital), an institution for mental diseases, received
$3.7 million of this reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency claimed reimbursement for services
provided by the Hospital in accordance with Federal and State laws and regulations and with the
approved provisions of the UCCP plan.

SUMMARY OF FINDINGS

The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $3,703,995 in costs claimed for services provided to 86 patients, $267,078
was allowable. However, the State agency claimed $3,436,917 of unallowable costs for 81
patients, including:



                                                 i
   •   78 patients whose care was not covered under the Medicaid plan because they were
       between the ages of 21/22 and 64,

   •   9 patients who did not receive services on the dates claimed,

   •   6 patients whose costs were paid by other sources, and

   •   5 patients whose costs were reimbursed from the Hurricane Rita uncompensated care
       pool but who were not evacuees.

Some patients’ costs were unallowable for more than one of these reasons.

The State agency claimed the unallowable costs because it (1) did not have procedures to ensure
that it claimed uncompensated care costs only for services covered under the Medicaid plan;
(2) relied on the Hospital to verify that the costs claimed were based on actual inpatient days;
(3) did not offset its uncompensated care claim by payments received from other sources on
behalf of the patients; and (4) did not have procedures to verify that patients whose costs were
claimed under the Hurricane Rita uncompensated care pool were, in fact, evacuees.

RECOMMENDATION

We recommend that the State agency refund to CMS the $3,436,917 in unallowable costs
claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-related
uncompensated care has ended, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our findings and
recommendation. The State agency said that it intended that its expenditure authority under the
section 1115 demonstration project should be interpreted to include inpatient psychiatric services
for all Hospital patients, including those between the ages of 22 and 65. With respect to our
findings that the State agency claimed reimbursement for patients who did not receive services
on the dates claimed and for patients whose costs had been paid by other sources, the State
agency said that it was reviewing those claims. Finally, the State agency requested that we
provide documentation of our finding that it claimed costs for five patients who were not
Hurricane Rita evacuees so that it could conduct its own review.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We provided the State agency with the requested documentation. Nothing in the State agency’s
comments caused us to revise our findings or recommendation.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Section 1115 Hurricane-Related Demonstration Projects ....................................1
              Louisiana’s Approved Uncompensated Care Pool Plan .......................................1
              Reimbursement to Institutions for Mental Diseases ............................................. 2
              Central Louisiana State Hospital ..........................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope ...................................................................................................................3
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATION................................................................................4

          UNALLOWABLE COSTS ..............................................................................................5
              Services Not Covered Under the Medicaid Plan ..................................................5
              Services Not Received ..........................................................................................5
              Reimbursement Received From Other Sources ....................................................6
              Hurricane Rita Costs Claimed for Nonevacuees ..................................................6

          RECOMMENDATION ....................................................................................................7

          STATE AGENCY COMMENTS .....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIXES

          A: REASONS FOR UNALLOWABLE COSTS FOR EACH PATIENT

          B: STATE AGENCY COMMENTS




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1115 Hurricane-Related Demonstration Projects

Section 1115 of the Act permits the Secretary to authorize demonstration projects to promote the
objectives of the Medicaid program. Pursuant to section 1115, CMS may waive compliance with
any of the requirements of section 1902 of the Act and provide Federal matching funds for
demonstration expenditures that would not otherwise be included as expenditures under the State
Medicaid plan.

In response to Hurricane Katrina, CMS announced that States could apply for section 1115
demonstration projects to ensure the continuity of health care services for hurricane victims. A
State with an approved hurricane-related section 1115 demonstration project was eligible under
section 6201 of the Deficit Reduction Act of 2005 for Federal payment of the total costs of
uncompensated care incurred for medically necessary services and supplies furnished to
Hurricane Katrina evacuees and affected individuals who did not have other coverage for such
assistance.

Louisiana’s Approved Uncompensated Care Pool Plan

In a November 10, 2005, letter, CMS approved Louisiana’s request for section 1115
demonstration authority and an uncompensated care pool to reimburse providers for medically
necessary services and supplies for Hurricane Katrina evacuees who did not have insurance
coverage or other available options. In a March 24, 2006, letter, CMS approved Louisiana’s
uncompensated care pool plan (the UCCP plan) and authorized reimbursement from the pool for
services provided to Katrina evacuees and affected individuals from August 24, 2005, through
January 31, 2006. The UCCP plan proposed to reimburse providers that incurred
uncompensated care costs for which there was no other source of payment. In the approval
letter, CMS specified that payment would be made in accordance with both the State Medicaid
plan and the UCCP plan and that expenditures above those limits were not reimbursable.

In an April 28, 2006, letter, CMS also authorized Louisiana to operate an uncompensated care
pool to reimburse providers serving Hurricane Rita evacuees who were not eligible for Medicaid
or the State Children’s Health Insurance Program (now known as the Children’s Health
Insurance Program) and who did not have other health insurance coverage. The letter required
the State to adhere to the same methodology for operations and program integrity as described in



                                                1
the Hurricane Katrina approval. The Hurricane Rita pool was approved for medically necessary
services provided to evacuees from September 23, 2005, through January 31, 2006. The pool
was funded through an interagency agreement between CMS and the Federal Emergency
Management Agency’s National Disaster Medical System and was limited to the funding
available under that agreement.

Louisiana’s UCCP plan listed the broad categories of services that would be covered through the
uncompensated care pool, including inpatient psychiatric services, and stated that payments
would be based on the Louisiana Medicaid rate. Only Medicaid providers were eligible for
reimbursement. The UCCP plan also provided that all claims would be reviewed before any
payment and that applicable Federal and State laws and regulations would govern the
prepayment investigation.

On March 20, 2006, before CMS approved the UCCP plan, the State published an emergency
regulation to govern reimbursement from the uncompensated care pool. 1 Pursuant to the
regulation, reimbursement was available for specified services covered under the State Medicaid
plan, including inpatient psychiatric services. The State later published a final rule affirming that
coverage through the uncompensated care pool was available for services covered under the
Medicaid plan. 2

The Louisiana Department of Health and Hospitals (the State agency) administered the
uncompensated care pool, which was 100 percent federally funded. As of December 31, 2006,
the State agency reported $123.2 million in uncompensated care reimbursement to 834 health
care providers, including State-operated inpatient psychiatric facilities. Central Louisiana State
Hospital (the Hospital), located in Pineville, received $3.7 million of this reimbursement based
on claims that the State agency submitted to CMS.

Reimbursement to Institutions for Mental Diseases

The Act provides that Federal reimbursement is not available under the State Medicaid plan for
services furnished to certain patients in institutions for mental diseases (IMD). Clause (B) in the
paragraph following section 1905(a)(28) of the Act excludes from the definition of medical
assistance “any such payments with respect to care or services for any individual who has not
attained 65 years of age and who is a patient in an institution for mental diseases.” However, the
State may opt to cover inpatient psychiatric hospital services for individuals under the age of 21.
Pursuant to section 1905(h) of the Act, a State that elects to cover these services for individuals
under the age of 21 may, in some cases, cover individuals up to the age of 22. Louisiana’s
approved Medicaid plan includes such coverage. Therefore, Federal reimbursement to the State
is not available for services furnished to IMD patients aged 21/22 through 64 under the State
Medicaid plan.




1
    32 La. Reg. 377 (March 20, 2006).
2
    32 La. Reg. 1902 (October 20, 2006) (to be codified at La. Admin. Code, Title 50, part XXII, chapters 41–53).


                                                           2
Federal regulations (42 CFR § 435.1010) define an IMD as a hospital, nursing facility, or other
institution of more than 16 beds that is primarily engaged in providing diagnosis, treatment, or
care of persons with mental diseases.

Central Louisiana State Hospital

The Hospital is a State-operated inpatient psychiatric treatment facility that provides services to
adults, adolescents, and children. The Hospital meets the definition of an IMD.

During our audit period, the Hospital received reimbursement of $581.11 per day for inpatient
psychiatric services. Before and after the dates of service covered by the UCCP plan, costs
incurred by the Hospital for treating patients who had no other source of payment were paid with
State funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed reimbursement for services
provided by the Hospital in accordance with Federal and State laws and regulations and with the
approved provisions of the UCCP plan.

Scope

Our audit covered the $3.7 million in uncompensated care costs that the State agency reimbursed
the Hospital and claimed for Federal reimbursement as of December 31, 2006. These claims had
dates of service from August 24, 2005, through January 31, 2006.

We did not review the State agency’s or the Hospital’s overall internal control structures. We
limited our review to obtaining an understanding of the policies and procedures used to identify
and claim uncompensated care costs, account for billable inpatient days, and collect payments
for patients who had another source of income.

We conducted our fieldwork at the Hospital in Pineville, Louisiana, and at the State agency in
Baton Rouge, Louisiana.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws and regulations, the approved State Medicaid
        plan, CMS approval letters, the approved section 1115 demonstration, and the approved
        UCCP plan;

   •    interviewed State agency and Hospital officials to (1) gain an understanding of claim
        procedures and supporting documentation and (2) determine the source of payment for


                                                 3
       the costs incurred for treating patients before and after the dates of service claimed under
       the UCCP plan;

   •   obtained the State agency’s database of uncompensated care claims paid to providers as
       of December 31, 2006, which totaled $123.2 million;

   •   verified that all paid uncompensated care claims were included on the Quarterly
       Medicaid Statement of Expenditures for the Medical Assistance Program, Form CMS-64,
       for our audit period;

   •   extracted from the State agency’s database claims totaling $3,703,995 and paid to the
       Hospital for treating 86 patients for the period August 24, 2005, through January 31,
       2006; and

   •   reviewed the claims and supporting documentation (patient financial records) to verify,
       for each of the 86 patients, that:

           o the services claimed were covered under the Medicaid plan,

           o the patient received services on the dates of service claimed and the claims were
             for eligible dates of service,

           o the patient did not have another source of payment available for the services
             under Medicare, Medicaid, private insurance, or a State-funded health insurance
             program,

           o the amount claimed for the patient was accurately calculated,

           o the patient’s home address was within one of the individual assistance designation
             counties listed in an attachment to the UCCP plan, and

           o the patient was actually an evacuee if costs were claimed under the Hurricane Rita
             uncompensated care pool.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATION

The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $3,703,995 in costs claimed for services provided to the 86 patients,



                                                 4
$267,078 was allowable. However, the State agency claimed $3,436,917 of unallowable costs
for 81 patients, including:

      •    78 patients whose care was not covered under the Medicaid plan because they were
           between the ages of 21/22 and 64,

      •    9 patients who did not receive services on the dates claimed,

      •    6 patients whose costs were paid by other sources, and

      •    5 patients whose costs were reimbursed from the Hurricane Rita uncompensated care
           pool but who were not evacuees. 3

Appendix A shows a breakdown, by patient, of the reasons for the unallowable costs.

The State agency claimed the unallowable costs because it (1) did not have procedures to ensure
that it claimed uncompensated care costs only for services covered under the Medicaid plan;
(2) relied on the Hospital to verify that the costs claimed were based on actual inpatient days;
(3) did not offset its uncompensated care claim by payments received from other sources on
behalf of the patients; and (4) did not have procedures to verify that patients whose costs were
claimed under the Hurricane Rita uncompensated care pool were, in fact, evacuees.

UNALLOWABLE COSTS

Services Not Covered Under the Medicaid Plan

In approving the UCCP plan, CMS specified that payment would be in accordance with both the
Medicaid plan and the UCCP plan and that expenditures above those limits were not
reimbursable. Pursuant to 32 La. Reg. 1902, reimbursement from the uncompensated care pool
was available for inpatient psychiatric services covered under the Medicaid plan. The Medicaid
plan limits IMD inpatient psychiatric coverage to individuals who are (1) under the age of 21, or
under the age of 22 if the individual was receiving such services immediately preceding the date
on which he or she reached the age of 22, or (2) 65 years old or older.

The State agency inappropriately claimed costs for 78 patients aged 22 through 64 because it did
not have procedures to ensure that it claimed uncompensated care costs only for services covered
under the Medicaid plan.

Services Not Received

Section I.C of the UCCP plan stated: “Payments will be made only for covered services provided
to eligible populations ....” Section 1.D of the UCCP plan stated that an attestation would be
required from providers. The attestation form, which was signed by the acting assistant secretary


3
    Some patients’ costs were unallowable for more than one reason. We questioned these costs only once.


                                                          5
of the State agency’s Office of Mental Health, stated: “I certify that on this invoice ... the goods,
services and/or supplies ... were actually provided to the above listed individual ....”

The State agency inappropriately claimed costs for nine patients who did not actually receive the
services claimed. These patients were away from the Hospital on overnight passes for a total of
46 days claimed. According to State agency officials, if a patient was not in his or her bed at
midnight, the Hospital should not have been reimbursed for that day. 4

To ensure the validity of uncompensated care costs claimed on behalf of the Hospital, the State
agency provided the Hospital with a list of potentially eligible patients and their potential dates
of service and instructed the Hospital to perform random checks to verify the accuracy of the list.
The Hospital confirmed that the individuals on the list were patients during the specified periods
of service. However, the Hospital did not check patient records for days when patients were
away on overnight passes and made no adjustments to the State agency’s list to account for those
days. As a result, the State agency claimed costs for services that were not received.

Reimbursement Received From Other Sources

Section 1.B of the UCCP plan limited reimbursement to services provided to evacuees and
affected individuals for whom there were no other sources of payment. Section 1.D of the UCCP
plan stated that an attestation would be required from providers. The attestation form, which was
signed by the acting assistant secretary of the State agency’s Office of Mental Health, stated: “I
certify that no payment, either in full or in part, has been received from another entity on the
above listed claims.”

The State agency inappropriately claimed costs for six patients for whom the Hospital had
received payments from other sources. Specifically, the Hospital had received Medicare
payments and/or payments from the patients. 5 Although the Hospital did not offset its
uncompensated care claims by the amounts of these payments, it provided a spreadsheet to the
State agency detailing the payments. However, the State agency failed to offset its
uncompensated care claim by these payments.

Hurricane Rita Costs Claimed for Nonevacuees

In its approval letter for the Hurricane Rita uncompensated care pool, CMS authorized the State
agency to use the pool to reimburse providers for the costs of services provided to Hurricane Rita
evacuees.



4
  In administering the Medicaid program, the State agency followed Medicare guidance regarding billable patient
days for inpatient psychiatric facilities (IPF) under the IPF prospective payment system. According to CMS’s
Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3, section 190.10.7, an IPF is to account for
interrupted stays by counting from the day of discharge (e.g., the day that the patient leaves the facility on a pass)
through the last day that the patient was not present in the facility at midnight. The facility should not be reimbursed
for those days.
5
    The Hospital received reimbursement from more than one other source for four of the six patients.


                                                           6
The State agency inappropriately claimed costs for five patients whose costs were reimbursed
from the Hurricane Rita uncompensated care pool but who were not evacuees. These individuals
had been Hospital patients for 11 to 28 years before Hurricane Rita occurred.

To determine which patients’ costs were eligible for reimbursement under the UCCP plan, the
State agency electronically identified “free care” or “no pay” patients whose last known
residences were in designated disaster areas and who had received services during the dates
eligible for uncompensated care pool reimbursement. However, the State agency did not have
procedures to verify that patients whose costs were claimed under the Hurricane Rita
uncompensated care pool were, in fact, evacuees.

RECOMMENDATION

We recommend that the State agency refund to CMS the $3,436,917 in unallowable costs
claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-related
uncompensated care has ended, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our findings and
recommendation. The State agency said that, under its section 1115 demonstration project, CMS
permitted Louisiana to claim Federal reimbursement for “all expenditures for medical services
provided to individuals who are receiving inpatient psychiatric services under the demonstration
project in freestanding facilities.” The State agency indicated that it intended that this
expenditure authority should be interpreted to include inpatient psychiatric services for all
Hospital patients, including those between the ages of 22 and 65.

The State agency said that it had followed the processes outlined in its approved section 1115
demonstration project and approved UCCP plan and that it had clear procedures to ensure that it
claimed uncompensated care costs only for services covered under the State Medicaid plan. The
State agency explained that the benefits contained in its approved section 1115 demonstration
project were broadly defined as those of the State Medicaid plan and included inpatient
psychiatric services. The State agency said that it had intended to get 100-percent Federal funds
for the psychiatric services provided at the Hospital. Furthermore, the State agency said that
CMS had stated that the uncompensated care pool could be used to provide reimbursement for
benefits not covered under Title XIX of the Act.

With respect to our findings that the State agency claimed reimbursement for patients who did
not receive services on the dates claimed and for patients whose costs had been paid by other
sources, the State agency said that it was reviewing those claims. Finally, the State agency
requested that we provide documentation of our finding that it claimed costs for five patients
who were not Hurricane Rita evacuees so that it could conduct its own review.

The State agency’s comments are included in their entirety as Appendix B.




                                                7
OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency furnished no evidence to support its contention about the intent of the
demonstration provision and no evidence that Hospital patients were included in discussions with
CMS. Furthermore, the State agency’s intention is not evident in the broad wording of the
expenditure authority. Thus, we have no basis to conclude that CMS approved Federal
reimbursement for services provided to Hospital patients between the ages of 22 and 65.

As to the State agency’s assertion that CMS had stated that the uncompensated care pool could
be used to provide reimbursement for benefits not covered under Title XIX of the Act, the
State’s own emergency rule, issued on March 20, 2006, limited uncompensated care pool
coverage to benefits under the State Medicaid plan. The State’s rule specified that
“reimbursement is available under the UCC [uncompensated care] pool for the following
services covered under the Louisiana Medicaid State Plan.” The covered services included
“inpatient psychiatric services (free-standing psychiatric hospitals and distinct part psychiatric
units).” Like other covered services listed in the State’s emergency rule, inpatient psychiatric
services furnished by psychiatric hospitals and distinct-part psychiatric units are covered under
Louisiana’s Medicaid plan. However, these services are covered under the State plan only for
individuals under the age of 21/22 and individuals aged 65 or older.

In addition, the State agency provided no evidence that would invalidate our findings related to
patients who did not receive services on the dates claimed, patients whose costs had been paid by
other sources, or patients who were not Hurricane Rita evacuees. As requested, we provided the
State agency with documentation of our finding that it claimed costs for patients who were not
Hurricane Rita evacuees.

Nothing in the State agency’s comments caused us to revise our findings or recommendation.
The State agency should refund the entire $3,436,917 to CMS.




                                                 8
APPENDIXES
                                                                               Page 1 of 3

APPENDIX A: REASONS FOR UNALLOWABLE COSTS FOR EACH PATIENT


    1     The services were not covered under the State Medicaid plan.
    2     The patient did not receive the services.
    3     The patient’s cost was paid by another source.
    4     The patient’s cost was claimed under the Hurricane Rita uncompensated
          care pool, but the patient was not an evacuee.


        Office of Inspector General Review Determinations on the 86 Patients

                                                            No. of
                 Patient       1      2      3      4
                                                          Deficiencies
                    1          x                    x           2
                    2          x                                1
                    3          x                                1
                    4          x                                1
                    5          x             x                  2
                    6          x                                1
                    7          x                                1
                    8          x                                1
                    9          x                                1
                   10          x                                1
                   11          x                                1
                   12                        x                  1
                   13          x                                1
                   14                                           0
                   15          x                                1
                   16          x                                1
                   17          x                                1
                   18          x                                1
                   19          x                                1
                   20          x                                1
                   21          x      x      x                  3
                   22          x                                1
                   23          x      x                         2
                   24          x                                1
                   25          x                    x           2
                   26          x      x                         2
                   27          x             x      x           3
                   28          x                                1
                   29          x                                1
                   30          x                                1
                   31          x                                1
                                         Page 2 of 3

                            No. of
Patient   1   2   3   4
                          Deficiencies
  32      x   x                2
  33      x                    1
  34                           0
  35      x                    1
  36      x   x                2
  37      x                    1
  38      x                    1
  39      x                    1
  40      x                    1
  41      x                    1
  42      x                    1
  43      x                    1
  44      x           x        2
  45      x                    1
  46      x                    1
  47                           0
  48      x                    1
  49      x                    1
  50      x                    1
  51      x   x                2
  52      x                    1
  53      x                    1
  54      x                    1
  55      x       x   x        3
  56      x                    1
  57                           0
  58      x                    1
  59      x                    1
  60      x                    1
  61          x                1
  62      x                    1
  63      x                    1
  64      x                    1
  65      x                    1
  66      x                    1
  67      x                    1
  68      x                    1
  69      x                    1
  70      x                    1
  71      x                    1
  72      x                    1
  73      x                    1
                                          Page 3 of 3

                             No. of
Patient   1    2   3   4
                           Deficiencies
  74      x                     1
  75      x    x                2
  76      x                     1
  77      x                     1
  78      x                     1
  79           x                1
  80                            0
  81      x                     1
  82      x                     1
  83      x                     1
  84      x                     1
  85      x        x            2
  86      x                     1
Total     78   9   6   5       98
                                                                                                                                                               Page 1 of3

                                    APPENDIX B: STATE AGENCY COMMENTS 




Bobby Jindal                                                                                                                                         Alan Levine
 ( ;/ )\ 'I':ltNl)](                                                                                                                                 ;;1':C .ltl ·:T \I(Y




                                                               ~tatt              of      1Loui~iana
                                                       D epartment of Health and Hospitals 

                                                              Burc.::\u of Health Services r;inancing 


                       February 12, 20 10

                       Ms. Patric ia W heeler 

                       Rcgionallnspcclor General for Audit Services 

                       1100 com merce Street. Room 63 2 

                       Da llas. TX 75242 


                       Re: Report Number A-06-09-00084 - "Rc\'icw of Cent ral Louisiana Shltc Hospital's
                       Hurricane-Related Uncompensated C:lrc Claims"

                       Dear Ms. Wheeler:

                   The Louisiana Department of I-I cCllth and Hosp ital s (LD HH) ack now ledges receipt of your
                   January 8, 201 0 correspondence and the draft report entitled " Review ofCenlral Louisiana Sl,lle
                   Hospital' s Hurrica ne-Related Un compensated Care Claims."' [\ is Oll r understanding thai the
                   report stems from a financial rcview to determ in e if Louisiana Medicaid cla imed rei mburse me nt
                   for services provided by thc Hospi tal in accordance with Fedc ral and State laws and regulati ons
                   and with Ihe approved prov isions o rlhe UCC P plan. As a resu lt of this review , it appears that
                   your office recommend s findings in four di stinct areas and a ret urn to CMS of $3.436,917 in
                   unallowable costs. LOI-II-1 appreciates the opportunity to provide written comments regarding the
                   recommendat ions conta ined in the draft report. For the reasons speci fi ed in the fo llow ing
                   paragraphs, the LOHH respectfully disagrees wilh the recommended findin gs and re fun d.

                   The fi rst area where in fi nding were recommended re lates to services not being covered under the
                   Med icaid Plan .       Specifica lly the report alleges that the Lou is iana Slale Plan and re lated
                   regu latio ns li mits pay ments from the UCC pool to inpatient psychimric services covered under
                   the plan. The recommendation goes o n \0 stale that the Louisiana plan Iimils IMD inpatient
                   psych iatric coverage to ind iv id uals who are under age 21 , or under age 22 in certain
                   c ircumstances. or age 65 or o lder. The fin dings al lege that LDI-IH ina ppropriately c laimed costs
                   for 78 patients between the ages of 21 /22 through 64. To the con trary. Loui siana Medica id
                   meticulously fo lloweclthe prncesses Otl1lincd in it s approved section 1115 dcmonstrat ion project
                   and its approved UCC poo l p l<ln. In fo llowing thesc processes, it is indisputable that Louisiana
                   h<ld c le<lr procedures in place to en sure that it cla imed un compensated care costs o nly for serv ices
                   cove red under the Medicaid plan .

                   As you are more than aware. on A ugust 29, 2005, Loui siana was devastated by the I:mdfall o f
                   Hurrica ne Katrina. This eve nt is w id ely recogni zed as the worst natural di saster in the hi story o r
                   the Un ited Slates. The mai n impactcd area was southeast Louisiana. specifically the New O rlea ns
                   area. As if Lo uisiana was not fa ced with a big enough emergency, on Septembe r 24. 2005 ,
                   Louisiana was hit by Hu rricane Rita. Hurricane Rita impacted southwestern Lo ui siana .
                   Toget her, th ese two hurricanes placed Louisiana in a situation of medical crisis for all its ci tizens.
                   especial ly the Med icaid and un insured populations.



                                    Bien" ille Bu, I"',n!: • 628 Noreh .. '" Slreel • 1'.0 . no" 9 1030' D~ l on Ro uge, Lou i,; '~"a 70821·9030 

                                       Phone n: 225/3~2·389 1 of" #225/J.12·~072 · l:~" n: 22S /J~ Z-9508 ' lflJl'll~ DHH.LA.GOV 

                                                                     ..... n I~I ,,~I O I' llOrl "ni1 r Em ployer" 

                                                                                                             Page 2 of3



February 12,20 10
Rev iew of Central LA State Hospital's Hurri cane-Related UCC
Page 2



In respo nse to thi s situati on. Sectio n 6201   or tile Deficit Reduction Act (DRA) of2005 au tho ri zed
federal funding for the tola l costs of medically necessary uncompensated care furnished to
evacuees and affec ted ind iv idual s. In o rder to receive thi s 100% federal fundin g, stales had 10
o perate pursuant to a Sectio n I I 15 project. Louisiana su bmitted a Secti on 11 15 waiver for
Katrina evacuees that was memor iali zed ill correspondence dated November !' 2005. fro m Dr.
Fred Cerise. then Secretary of LDHH. to Dr. Mark McClielian. then Adm ini strator for eMS .
Attached to this wa iver request was a draft Louisiana Hurricane Re lief Waiver Uncompensated
Care Costs Pool Plan . T he purpose of this poo l, as was made clear at the timc, was to g ive the
state access to federal fund s that could bc used to pay for medical serv ices provided to ind iv iduals
not eligible for Louisiana Medicaid.           T he specifics included Pool Coverage Eli g ib il ity
Determinations, th e definition of e lig ibl e populations. brokcn down by evacuec status, income
and med ica l nccessity, the definition o f availablc benefits, and the eligibility process. T he
application packct of Nove mber L 2005 a lso con tained a Multi · State Scct io n 1115
Demonstrati on Applicatio n template . Finally, t hi s packet co nta ined CMS Spec ial Term s and
Conditi ons .

According to this packet and attach ments, the benefits of this proj ect were brondly defined as
those of the State Plan Title XIX program in Louisian a. Without question , thi s definition inc luded
inpatient psychiat ric serv ices. Further, the attachments to the packet clearly listed out what
Lo ui siana determined to be Louisiana Medicaid cost not otherw isc matc hable that it believed
would be matched under this demonstration project. In cluded there in were "all expenditures for
medical services provided to indi v iduals who are receiving inpatient psychiatric services under
the demonstration project in freestanding fa ci lities."

CMS approved Louisiana ' s request for 1115 demonstration authority, which inc luded the UCC
poo l mcthodology for Lo ui siana in order to reimburse providers that incur uncom pensated care
costs for medically necessa ry services and suppl ies for evac uees . CMS expressly stated that the
pool fIlay also bc used to provide reimbu rsement for benefits not covered under Title XIX in the
Statc Plan. Attached to this approval was the above men tioned explanation of Louisiana Medi caid
costs not otherw ise matc hable which inc lud ed th e same language . Finally, in a letter dated March
24,2006, CMS provided express approva l for Louisiana' S UCC poo l pl an for Katrina cvac uees.
III that letter. e MS clearly authori zed Louisiana to reimburse provide rs that incu rred
un compensated care costs for medically necessary serv ices and medica lly necessary suppl ies for
Katrina evacuees and affected indiv iduals who do not have other coverage under Medicare.
Medica id, SCI-liP, private in surance, o r other State-fu nded hea lth in surance programs. It was
clearly stated that payment for se rvice re imbu rsed from the pool wo uld be in accordance w ith
Loui siana's State plan in p lace on August 24, 2005, and the UCC P. Furt her, the UCC pool plan
contained a speci fic section that outlined what would be cons idered allowable payments. S imply
put, all owable payments were defined as payments for "covered services" provided to el igible
populations. "Covered services" were defined in subsect io n C( l) and inc luded, among other
things, inpatient psychiatric se rvices .

One of the providers pm1icipating in the UCC pool was Centra l Louisiana State Hospital (CLS H).
CLS H is a freestand in g hospital that prov ides inpatient psychiatric services. It prov ides these
services to a wide range of ages, including indi viduals aged 22 to 65. Lou isia na is awa re that
federal match ing funds are not available under Title XIX fo r services providcd in institutions for
mental di seases ([MD) for thi s age gro up. Howeve r, Lo uisiana, in the case in question , was not,
                                                                                                                    Page 3 of3



 February 12.2 0 10 

 Rev iew o f Ce ntral LA State Hospital' s Hurricane-Re lated UCC 

 Page 3 





 and is not, seekin g federa l malchin g fu nds unde r its State Pla n fo r these services. At each and
 every tum of t hi s process, Lou isiana Medi ca id Illade it c lear that it was seeking a demonstrati on
 "waiver" to lead to the format ion o f a UCC pool with 100% lederal do llars. It is o bvio us Ihal this
 was not the no rma l Med icaid fu nd ing process invo lving state and fe dera lmalchi ll g funds. O n at
 least two separate occasions, Loui sian a Med icai d prov ided eMS w ith a statement outl ini ng
 Louis iana Med icaid costs not otherwise matchable.

 C learly the who le purpose of this statement was to get 100% funds for th e psyc hiatric services
 prov ided at C LSH. Louis iana Medicai d would nOI have 10 seek any fede ral autho rity to make
 pay me nts fo r Ihe age 2 1 and under population, or the age 65 and over indiv iduals, as it is already
 al lowed to make payment s for these services under the cu rrent prov is ions. Th ese services would
 never fi t under " Lo ui siana Medi ca id costs not otherwise matc hab le" as they arc ex press ly
 matchab le . T he ma in services that woul d not ot herw ise be matchable are obv iously inpatient
 psychiatric serv ices prov ided in freestand ing psyc hi atric hosp ital s that t~1 11 in to the definiti on o f
 IMDs.

 T he seco nd area where rindi ngs were recom mended re lates to "services not rece ived o n dates
 cla imed." Spec ifically, the draft re po rt alleges Ihatl he Stale agency inappropriate ly claimed costs
 fo r 9 pati ents that d id nol actua lly rece ive the services cla imed. All of th ese c laims re lated to
 ove rni ght passes . LDHH is cu rrently investigat ing the process and procedures related to these
 ove rni ght passes. At the conclusion of thi s in vestigati on. LDHH w ill forwa rd its fi ndi ngs to your
 attention.

 T he t hird nren where fin dings were recommended relates to rei mbursement received fro m other
 sources. Accord ing to the draft report, the statc nge ncy inap propri ate ly cla imed costs fo r 6
 patients f'or who m C LSH had rcce ived payments from ot her sou rccs. Based on Ih is in for mati on.
 LD HH is cu rren tly review ing these claim s to veri fy what act ually occurred. W he n the rev iew is
 com pleted. LD HH wil l prov ide mo re dewi l.

 The fo urth and fin al area whe re fi nd ings were recommended relates to pat ients who were not
 evacuees. Acco rdi ng to the draf1 report, th e state agency inappropriately clai med costs fo r 5
 patients who were not Hurri cane Rita evacuees . Please provide workpapers which doc ument Ihi s
 recommended fi ndin g. Upon receipt of these workpapers, LDHH will rev iew the med ica l records
 at CLS H to determine if th ese pat ients were evacuees.

  If you have any questions or concern s. pleasc feel free to contact me at 225/342-3 891.

 S in cere ly,




  ~~
~~%t~id Director
